Audit Report

Office of  Community Oriented Policing Services Technology Grant 
to the University of New Hampshire, Durham, New Hampshire

Audit Report GR-70-05-010


April 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the $4 million technology grant awarded by the Office of Community Oriented Policing Services (COPS) to the University of New Hampshire (UNH).  The purpose of the COPS technology grant awarded to the UNH is to continue funding of the Project54 system developed by the Consolidated Advanced Technologies for Law Enforcement Laboratory (CAT Lab) at the UNH.  Project54 allows for a hands-free and eyes-free voice-activated operation of in-vehicle devices such as the lights, radar, siren, and radio systems.  The immediate goal of the Project54 effort is to deploy this advanced system within state and local New Hampshire law enforcement agencies.  

As a part of the audit, we conducted a user survey to determine the effectiveness of the Project54 technology.  Overall, respondents to the User Survey Questionnaire view the Project54 system installed in their police vehicles favorably and reported that productivity increased as a result of the technology.  Respondents expressed their desire to continue using the Project54 technology and a willingness to recommend the system to other police officers.  They also cited specific benefits that they now experience with the technology that were not available to them in their former police vehicles.  However, while respondents are generally satisfied with the Project54 system, they did voice some concerns about operational and design issues that have been problematic, limitations imposed on local police departments that restrict the full use of the systems capability for records access, and a lack of training afforded all users.  

From our audit we determined that the UNH did not fully comply with the grant requirements we tested.  We found noncompliance in:      1) the procurement process and an apparent conflict of interest,  2) equipment and contract labor charges for in-vehicle equipment installation not provided for in the grant, and 3) the reimbursement of other expenses for services not provided for in the grant.  

As a result, we question $106,688 of grant funds received, which represents about 2.7 percent of total grant funding.1   Additionally, we identified significant internal control weaknesses at the UNH associated with its ability to address and appropriately resolve apparent conflict of interest issues and to ensure that cost reimbursements for expenses are for allowable grant-related charges.  From the results of our user survey, we also question whether the UNH has fully addressed and corrected problematic system issues and ensured that users receive adequate training and technical assistance.  

The UNH charged $47,255 to the grant for procurements involving an apparent conflict of interest from two separate related-party vendors.2
The UNH charged $55,697 to the grant for the purchase of equipment and contract labor not approved in the grant budget.
The UNH charged $3,737 to the grant for expenditures related to labor charges and automobile detailing not approved in the grant budget.
The UNH system of internal controls did not prevent charges to the grant for purchases representing an apparent conflict of interest, and did not identify cost reimbursements for expenses not allowable under the grant.
User survey respondents cite problems in the operation and design of the Project54 system in their police vehicles.
User survey respondents cite restrictions on using the full capability of the Project54 system in their police vehicles.
User survey respondents cite lack of Project54 system training.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.

  



Footnotes

The Inspector General Act of 1978 as amended contains our reporting requirements for questioned costs. However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for a definition of questioned costs.  

	The term related-party vendor is used in this report to define a for-profit private company that has an immediate family relationship with a grantee official serving in a decision-making capacity, and that company has the potential to exert significant influence or control over the grantee official because of that relationship.